 
   
 
  

A. Scott Johnson
Alexander C. Vosler

JOHNSON HANAN VOSLER a
Kari A. Hawthorne
HAWTHORNE & SNIDER Sean P. Snider +
Erin Clark

Anthony C. Winter

9801 North Broadway Extension ‘Austin | ¥
: stin J. Young
Oklahoma City, OK 73114 Keith R. Brecheen
405.232.6100 P 405.232.6105 F Meilani C. Kaaihue
Zachary E. Williams
Tara M. Penick
John W. Toal
Vanessa O. Martinez

   

# Also Licensed in Kansas

April 2, 2021

Scott S. Harris

Chief Deputy Clerk

Supreme Court of the United States
1 First Street, NE

Washington, DC 20543

Re: Hooks v. Kayodi Atoki, Bethany Police Department, et al., No. 20-7368
Dear Mr. Harris,

Pursuant to Supreme Court Rule 30.4, Respondents Armor Correctional
Health, Inc. and Dr. Jerry Childs, Jr., D.O. respectfully request a 30-day extension of
time in which to file its response to the certiorari petition in this case. Petitioner filed
a petition for writ of certiorari on March 4, 2021. The current due date for
Respondents’ brief in opposition is April 7, 2021, and a 30-day extension would create
a new due date of Friday, May 7, 2021.

This request is not made for the purposes of delay; but is instead necessary so
that we may carefully consider and respond to the arguments raised in the petition
and due to the press of other business, including upcoming trials.

Thank you for your consideration of this request.

 
